Office of Inspector General


October 1, 2002


MEMORANDUM
FOR:             Anthony Gambino, Mission Director, USAID/Democratic
                 Republic of the Congo

FROM:            Nancy Toolan, Acting RIG/Dakar /s/

SUBJECT:         Survey of USAID-financed Assistance to the Democratic Republic
                 of the Congo (Report No. 7-660-03-001-S)

This report presents the results of our Survey of USAID-financed Assistance to
the Democratic Republic of the Congo. This is not an audit report and does not
contain any recommendations for your action. In finalizing this report, we
considered management’s comments on our draft report and included them in
Appendix II of the final report.

I appreciate the cooperation and courtesy extended to my staff during the survey.




                                                                                    1
Background   The Democratic Republic of the Congo (DRC) is home to roughly 50 million
             people and borders nine other countries. The country has enormous potential to
             serve the needs of its own citizens and influence the stability of the rest of the
             continent given the vast mineral, agricultural, and water resources. The ongoing,
             externally-imposed conflict, however, denies its citizens the benefits of its natural
             resources. The capacity of the state to deliver basic services has nearly vanished,
             and the Congolese economy has declined steadily during the past three decades.
             Agricultural production has suffered from crop diseases such as cassava mosaic
             virus. Because of the situation within the country, most Congolese struggle from
             day-to-day to feed themselves and their children.

             The problems that have been encountered by the USAID Mission include: (1) a
             war that had armies from six countries in the region on DRC’s soil; (2) lack of
             accessibility to parts of the country due to political restrictions and insecurity
             brought on by the war; and (3) economic decline due to decades of
             mismanagement of its resources and corruption. Parts of the country are
             inaccessible by road so they can only be reached by a United Nations or a
             missionary aircraft. USAID projects are implemented all over the country, and
             some planes carrying USAID supplies have been shot at. In addition, several
             project sites have been attacked and robbed.

             Despite the President of the DRC’s pronouncements and actions for new
             prospects of peace, the situation in the Congo remains highly uncertain.

             March of 2001 marked the end of USAID/DRC’s 18-month transitional strategy
             that consisted of one Strategic Objective (Assist Congolese people with national,
             provincial and community problems through participatory processes) and 3
             intermediate results as follows:

             1. Key health problems addressed with emphasis on redevelopment of
                governance structures for public health and citizen participation.

             2. Good governance and rule of law promoted with emphasis on multi-
                stakeholder problem-solving.

             3. Constituencies for sustainable management of natural resources built with
                emphasis on community participation.

             Until a new strategy is developed, USAID/DRC will continue to focus on the
             three intermediate results and expand them into full strategic objectives.



                                                                                                  2
              Even with the problems noted above with the situation of the country,
              USAID/DRC has a sizeable budget as shown in the table below for fiscal years
              (FY) 2000, 2001 and 2002.

                      Millions of Dollars            FY 2002         FY 2001          FY 2000
               IR 1 (Health)                              $17.7          $15.3              $9.0
               IR 2 (Democracy)                             8.5            7.7               4.3
               IR 3 (Environmental)                         2.0            4.1               1.6
                             Total                        $28.2          $27.1             $14.9

              USAID/Office of Foreign Disaster Assistance (OFDA) also has programs
              operating in the country with a budget of approximately $29 million for FY 2002
              alone. This funding is managed through USAID/Washington with two OFDA
              representatives posted in Kinshasa to monitor the programs. The Mission has
              little direct involvement with the OFDA programs.

              This risk assessment included an overview of USAID/DRC; we included in this
              risk assessment an overview of the OFDA programs because the funding
              represents USAID-financed assistance to the DRC. The General Accounting
              Office (GAO) stated in the “Standards for Internal Control in the Federal
              Government” that internal controls are an integral component of an organization’s
              management. They should provide reasonable assurance that the following
              objectives are being met: effectiveness and efficiency of operations, reliability of
              financial reporting, and compliance with applicable laws and regulations.

              One component of internal controls noted by GAO is “Internal control should
              provide for an assessment of the risks the agency faces from both external and
              internal sources.” This survey focused on the risk assessment component. The
              GAO standards note that the specific risk analysis methodology used can vary
              because of differences in agencies’ missions and the difficulty in qualitatively and
              quantitatively assigning levels of risk.



Discussion:   USAID/Democratic Republic of the Congo (DRC) has programs relating to the
Discussion    three intermediate results, which are in the areas of health, democracy, and
              environment. We assessed the risk associated with each area as well as the other
              major functions of the office such as the program, executive, and controller’s
              offices. In addition, we examined the risk associated with USAID/Office of
              Foreign Disaster Assistance. Our assessment is described below.




                                                                                                 3
                Function Description                         Risk Exposure
Child Survival and Health Activities – emphasis                   High
on the redevelopment of structures for public health
care and citizen participation
                               Risk Assessment Factors
• Over $17.7 million is budgeted for the child survival and health activities.

•   Programs take place throughout the country. The infrastructure has
    deteriorated so much that planes are the only way to access some parts of the
    country. In addition, part of the country is still rebel-held. One of the planes
    carrying supplies for a USAID-funded program was shot at recently.

•   While performing a site visit to a rural health project, which receives the most
    child survival and health funding, a programmatic issue was noted of whether
    or not the goals of the project were realistic. In addition, it was observed that
    the purpose of the program might not be completely understood by the
    implementing partners.

•   Data assessments on performance indicators have not been done as required by
    ADS 203.

•   One performance indicator in the strategic framework could not be supported
    with data from the development partner. (Indicator 8: Men and women in high
    risk groups who report condom use during last sexual encounter.)

•   For two of the six performance indicators in the health area, the Mission was
    not able to document a direct causal link between USAID-financed activities
    and measured results as required by ADS 203.

•   For those implementing agreements initiated in Washington, unliquidated
    obligations of the health programs were not reviewed as required by ADS 621.

•   For those implementing agreements initiated in Washington, computation of
    accruals was not performed.

•   The Mission was lacking copies of certain implementing agreements.

•   Not all implementing partners submitted quarterly reports as required by the
    implementing agreements.

•   The Mission’s FMFIA review did not disclose material weaknesses in the
    above areas.




                                                                                        4
Performance indicators, used as a basis for reporting, are a basic management tool
for making performance-based decisions about program strategies and activities.

Certain indicators are too broadly defined to measure USAID/DRC program
results and rely on data sources that capture the results of all development
organizations operating in the given sector. For example, the Mission was using
the indicator “Men and women in high risk groups who report condom use during
last sexual encounter” as one performance measure of a health project. The
indicator results were based on a survey. Per discussion with staff from the non-
governmental organization (NGO) organizing the survey and working on the
prevention of HIV/AIDS transmission, several organizations in the DRC are
working in the same field, and the results cannot be directly attributed to the
USAID project. ADS 203 requires that performance indicators must measure
change that is clearly and reasonably attributable to USAID efforts, at least in
part. The ADS refers to this as “attribution” and states that it exists when the
links between the outputs produced by USAID’s financed activities and the
results being measured are clear and significant. It further states that indicators
that do not meet the attribution requirement should not be used to describe the
effects or impacts of USAID programs.

Another weakness in the area of performance indicators is the lack of source
documents for the indicator noted above. USAID reported results based on a
survey that was done to determine the percentage of men and women in high-risk
groups who reported condom use during the last sexual encounter. The Mission
was unable to provide documentation supporting the results of the survey. When
the NGO organizing the survey was asked to provide results, the NGO stated that
the results of the survey were preliminary, and the director of the NGO would not
be comfortable reporting such results. ADS 203 requires that performance
indicators be valid and reliable. ADS 203 also requires that source documents be
maintained and readily available.

Performance indicators that do not meet USAID quality and accuracy standards can
adversely affect performance-based decisions and may not conform to USAID
reporting requirements, as well as federal regulations governing results reporting.

Regarding the site visit performed at the rural health project, several programmatic
issues were noted. The program is attempting to provide basic health care to 12
million people using $25 million over five years. That equals just over $2 per
person for five years or $.40 per person per year (assuming no overhead costs). The
goals of the project are in the following areas: HIV/AIDS, nutrition, re-emerging
diseases, malaria, water and sanitation, planning and management, training and
supervision, financial sustainability, and essential drugs and medical materials
system. It does not seem feasible for the project to have a significant impact in all of
the areas mentioned given the funding level and coverage.




                                                                                       5
In addition, the purpose of the project is not to recover costs, but that idea did not
seem to be completely understood by employees of the health district visited. The
hospital in the health district would hold mothers and children captive for non-
payment of services. Some women and children had been kept for as long as 8
months. Because the hospital is not entirely enclosed, some women were able to
escape without paying. If people are afraid of being held captive, they may not seek
help when needed, which is counter-productive to the project goals.

                Function Description                  Risk Exposure
 Democracy and Governance – promotes good                 High
 governance and rule of law with emphasis on multi-
 stakeholder problem solving
                             Risk Assessment Factors
 • The Democracy and Good Governance programs have a budget of almost $8.5
     million.

 •   An experienced personal services contractor is the team leader.

 •   The political situation of the country is fluid, with part of the country still rebel-
     held.

 •   Programs take place throughout the country. The infrastructure has
     deteriorated so much that planes are the only way to access some parts of the
     country.

 •   Staff is almost entirely new to USAID.

 •   The Mission does not have any current mission orders.

 •   The Mission does not have a performance monitoring plan as required by ADS
     201.

 •   Data assessments for performance indicators have not been done as required by
     ADS 203.

 •   The Mission was lacking a copy of a principal implementing agreement.

 •   The Mission’s FMFIA review did not disclose material weaknesses in the
     above areas.


We noted that the Mission did not have a copy of a principal implementing
agreement with the International Foundation for Election Systems and
International Human Rights Law Group Global Rule of Law and Human Rights
Cooperative Agreement. The agreement had initially been written out of


                                                                                          6
USAID/Washington. Without a copy of the actual agreement with the
implementing partner, the Mission is unable to confirm the partner’s
programmatic and reporting responsibilities. This could negatively impact
monitoring, evaluating and reporting procedures required by ADS 201, 202 and
203. Mission personnel stated that they had made previous requests for the
agreement but have not yet been able to get a copy.

Another control weakness found was that data assessments had not been done as
required by ADS 203. Assessments are intended to ensure that performance
information is sufficiently complete, accurate, and consistent and meets indicator
quality requirements. Without quality data, the USAID/DRC cannot ensure that
the best possible program and budget decisions are made, resources are used
efficiently, the requirements of federal legislation are met, and information needs
of USAID are addressed.

                 Function Description                     Risk Exposure
 Environmental Activities – builds constituencies              High
 for sustainable management of natural resources
 with emphasis on community participation
                             Risk Assessment Factors
 • The environmental programs have a budget of about $2.0 million.

 •   Mission personnel stated that in one of the micro-finance programs, two loan
     recipients were no longer able to repay their loans which were of substantial
     size.

 •   On a site visit, it was noted that the agro-forestry project of replanting trees to
     make charcoal to sell appears to be sustainable. The area is so large and the
     tree growth is so good that the farmers were not able to cut down the trees
     every 8 years as was originally intended.

 •   The political situation of the country is fluid, with part of the country still rebel-
     held.

 •   Staff is almost entirely new to USAID.

 •   The Mission does not have any current mission orders.

 •   The Mission does not have a performance monitoring plan as required by ADS
     201.

 •   The Mission’s FMFIA review did not disclose material weaknesses in the
     above areas.




                                                                                           7
The environmental intermediate result has several activities that make up the
portfolio including an agro-forestry project. A micro-finance component is part of
the agro-forestry project, in which farmers received loans to finance agro-oriented
activities. However, two of the recipients who received substantial loans under the
program are no longer able to repay them. Mission personnel stated that the
contractor should have examined better the recipients receiving financing.
Personnel in USAID/Regional Economic Development Support Office (REDSO) in
Nairobi had been advised of the problem.


              Function Description                                 Risk Exposure
 Program Office – coordinates budget and annual                        High
 reporting
                            Risk Assessment Factors

 •   The Program Officer is an experienced U.S. direct hire employee.

 •   The political situation of the country is fluid, with part of the country still rebel-
     held.

 •   Programs take place throughout the country. The infrastructure has
     deteriorated so much that planes are the only way to access some parts of the
     country.

 •   The Mission does not have any current mission orders.

 •   The Mission does not have a performance monitoring plan (PMP) as required
     by Automated Directives System (ADS) 201.

 •   Data assessments for performance indicators have not been done as required by
     ADS 203.

 •   One performance indicator in the strategic framework could not be supported
     with data from the development partner. (Indicator 8: Men and women in high-
     risk groups who report condom use during last sexual encounter.)

 •   For two performance indicators in the strategic framework, the Mission was not
     able to document a direct causal link between USAID-financed activities and
     measured results as required by ADS 203.

 •   The Mission’s Federal Managers’ Financial Integrity Act (FMFIA) review
     disclosed a material weakness: the Mission had not constituted a Management
     Control Review Committee (MCRC).




                                                                                          8
One weakness in the general control system of the program office is that
USAID/DRC does not have any current mission orders. For example, there is no
order designating a MCRC or an audit management officer as required by ADS 591.
This lack of a MCRC was noted in the Mission’s FMFIA review as a material
weakness.

Another control weakness is the lack of a Mission PMP as required by ADS 201.
The PMP is a tool USAID operating units use to plan, document and manage the
collection of performance data. It should contain at a minimum: (1) a detailed
definition of each performance indicator, (2) the source, method, frequency and
schedule of data collection, and (3) the office, team, or individual responsible for
ensuring data are available on schedule. Without a completed PMP, the Mission
does not have assurance that it is has the elements that are essential to the operation
of a credible and useful performance-based management system. Although it was
not completed for the March 2002 reporting cycle, Mission personnel estimate that a
PMP will be completed by July 2002.


                 Function Description                        Risk Exposure
 Executive Office – manages administrative                     Moderate
 functions such as personnel management, general
 services, and property management
                              Risk Assessment Factors
 • An experienced personal services contractor serves as the executive officer.

 •   Operating expenses for the fiscal year ending September 30, 2001 totaled $1.8
     million. As of May 21, 2002, operating expenses equaled almost $1 million.

 •   The Mission does not have any current mission orders.

 •   The Mission’s FMFIA review did not disclose material weaknesses in the
     above areas.




                                                                                      9
                 Function Description                          Risk Exposure
 Controller’s Office – discharges financial aspects                  High
 of the Mission operations
                              Risk Assessment Factors
 • There is only one employee currently in the Controller’s Office, a Foreign
     Service National. The employee was on leave during fieldwork, so we were
     unable to meet with her. A Controller is expected to arrive in August or
     September. This unfilled position was noted as a material weakness in the
     Mission’s FMFIA.

 •   Implementing agreements and contracts initiated in Washington do not appear
     on the Mission Accounting and Control System (MACS) of the DRC, which is
     run through USAID/Regional Economic Development Support Office in
     Nairobi.

 •   There is no cashiering function at USAID. The embassy cashier provides any
     necessary services.

 •   For those implementing agreements initiated in Washington, unliquidated
     obligations were not reviewed as required by ADS 621.

 •   For those implementing agreements initiated in Washington, computation of
     accruals was not performed.

 •   An assessment of management controls was not properly performed as required
     by the FMFIA of 1982. Throughout the discussion area of this report, we have
     noted material weaknesses that were not disclosed in the Mission’s FMFIA.
     For example, the lack of data assessments performed and no performance
     monitoring plan both constitute material weaknesses that should have been
     disclosed.


Unliquidated obligation reviews were not performed for several implementing
agreements that were issued out of USAID/Washington and are currently not
accounted for on the Mission’s MACS, which is maintained by REDSO. Mission
officials stated that for these documents, no contact with Washington personnel
had been made regarding unliquidated obligation reviews, which are required by
ADS 621. These financial management procedures cannot be done accurately in
USAID/Washington without input from the Mission activity managers.
Therefore, unliquidated balances that were no longer needed may not have been
identified and used for other purposes. Mission personnel stated that, for the
Mission agreements maintained on the MACS in Nairobi, personnel from REDSO
assisted Mission staff in conducting the required reviews.




                                                                                 10
An additional financial control weakness concerned several implementing
agreements that were issued out of USAID/Washington. Mission officials stated
that for these documents, no contact with Washington personnel had been made
regarding the computation of accruals, which are required by ADS 631. These
financial management computations cannot be done accurately in
USAID/Washington without input from the Mission activity managers.
Therefore, reported expenditures may have been understated and financial results
inaccurately reported. Mission personnel stated that, for the Mission agreements
maintained on the MACS by REDSO, personnel from REDSO assisted Mission
staff in computing the necessary accruals.

Office of Foreign Disaster Assistance (OFDA)

Even though the Mission is not directly involved in the management of the OFDA
program, we included the function in our survey and performed a risk assessment of
the program since the funding is a part of the USAID-financed assistance to the
DRC.

                Function Description                      Risk Exposure
 Office of Foreign Disaster Assistance – provides              High
 immediate assistance to promote livelihoods
                             Risk Assessment Factors
 • The OFDA budget for FY 2002 is estimated to be as high as $29 million.

 •   OFDA programs are managed through USAID/Washington in conjunction with
     two OFDA employees posted in Kinshasa.

 •   The political situation of the country is fluid, with part of the country still rebel-
     held.

 •   Programs take place throughout the country. The infrastructure has
     deteriorated so much that planes are the only way to access some parts of the
     country.

 •   Some project sites have been attacked and robbed resulting in losses to the
     program.


The OFDA program in the DRC has a sizeable budget of around $29 million. The
programs funded with this amount are managed through USAID/Washington with
two OFDA representatives posted in Kinshasa. The representatives spend a majority
of their time in the field performing site visits of the projects. The sites are selected
on a sample basis, as visiting all locations would not be possible. Site reports, which
range from a short informal email to an extensive report, are sent to Washington




                                                                                         11
             summarizing the trip. The representatives do not get involved in the financial
             management of the program such as obligations and accruals.



Conclusion   We examined the risk associated with the various aspects of the
             USAID/Democratic Republic of the Congo (DRC) mission. The table below
             summarizes the findings.

                                                              Risk Exposure
                         Function                   High        Moderate          Low
              Child Survival and Health
                                                     ✔
              Activities
              Democracy and Good
                                                     ✔
              Governance
              Environmental Activities               ✔
              Program Office                         ✔
              Executive Office                                       ✔
              Controller’s Office                    ✔
              OFDA                                   ✔

             Risk in the executive office was assessed as moderate due to the minimal
             operating budget in conjunction with the experienced personal services contractor.
             In general, all other functions were assessed as high-risk due to the situation of
             the mission and related programs, in addition to the situation of the country. The
             mission does not have a set of mission orders or a performance monitoring plan,
             and the assessment of internal controls as required by the Federal Managers’
             Financial Integrity Act was not properly performed.

             The country itself is in a volatile situation with parts occupied by rebel armies.
             Some project sites have been robbed, and planes carrying supplies to Mission
             programs have been shot at.

             Overall the risk exposure associated with USAID/DRC is considered high based
             on the results of this risk assessment.

             The Mission fully concurred with the risk assessments made.




                                                                                                  12
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Office of the Regional Inspector General in Dakar conducted this risk
              assessment to gain an understanding of the programs and activities of
              USAID/Democratic Republic of the Congo (DRC). This was not an audit and
              does not contain any formal recommendations. The risk assessment was
              conducted at USAID/DRC from May 20-31, 2002 with fieldwork taking place in
              Kinshasa, Mampu, and the Sona Bata region.

              Methodology

              To perform this risk assessment, we interviewed USAID/DRC and USAID/Office
              of Foreign Disaster Assistance (OFDA) personnel and examined documentation
              to obtain an understanding of the mission’s portfolio and activities. We assessed
              the controls at the mission level to determine if they were adequate and working
              as designed. We also interviewed the personnel of the implementing partners for
              these activities to assess their controls to determine if they were adequate. As a
              result, we assessed individually the level of risk (low, moderate, or high) for the
              major activities of the mission.

              The risk assessment focused on fiscal year (FY) 2001 data and, as necessary, FY
              2000 and 2002 data.

              Given the broad scope of the programs and the limited review envisioned for such
              activities, the risk assessment was designed to assess the vulnerability within
              certain focus areas.

              The general methodology for the survey included the following:

              1. Reviewed applicable laws, regulations, policies, and guidance.

              2. Met with USAID/DRC officials to gain an understanding of the breakdown of
                 responsibilities and monitoring of programs. Assessed what controls were
                 being used for the various programs.

              3. Performed site visits with cooperating sponsors. Determined if the controls
                 were in place and working as intended for the focus areas.




                                                                                               13
                                                          Appendix II

Management
             September 27, 2002
Comments:
             To:     Mr. Lee Jewell, RIG/Dakar

             From:   Anthony Gambino, Mission Director
                     USAID/DRC /s/

             Subject: Survey of USAID-financed Assistance to the
             Democratic Republic of the Congo

             I appreciate the opportunity to respond to the
             RIG/Dakar survey report on USAID-financed Assistance
             to the Democratic Republic of the Congo.

             The Mission fully concurs in all of the findings
             included in the survey report. The timing of the
             draft report issuance is very opportune as it
             coincides with the current review under way within the
             Mission in preparation for its submission of the
             Annual Mission Director’s Certification in accordance
             with the Federal Managers Financial Integrity Act
             (FMFIA).

             As noted in the draft report, the Mission is currently
             in the midst of developing a new five-year strategy,
             which will be reviewed in USAID/W in December 2002.
             This new strategy, if approved, could lead to a
             significant increase in USAID resources to the
             Democratic Republic of the Congo. Prior to fully
             committing increased resources, the Mission must be
             able to demonstrate to USAID/W that work is under way
             to establish procedures/controls within the Mission to
             allow us to adequately monitor activities and
             accurately report on funds allowed to USAID/DRC.

             The Mission concurs in the RIG overall assessment that
             the risk exposure for USAID/DRC is “high.” Given our
             difficult operating environment, we believe it is
             unlikely that we will be able to lower the risk level
             in the immediate future. We do believe, however, that
             with the introduction of appropriate procedures and



                                                                    14
implementation of better controls, many of which were
identified in the RIG survey report, we will be
positioned to better manage the risk.

The Mission recently appointed a Mission Management
Control Review Committee (MMCRC). This committee is
currently focusing on a review of Mission procedures
and controls – both administrative and program - in
accordance with the requirements of the FMFIA.   To
assist them in their review, a copy of the RIG draft
survey report was provided to each MMCRC member. In
addition to identifying and reporting material
weaknesses to USAID/W, I have tasked the MMCRC with
developing a work plan which will establish a schedule
for implementation during FY 2003 of procedures and
controls, identified by the MMCRC, aimed at improving
the Mission’s ability to better manage risk.

As you are aware, the Mission recently received
approval from USAID/W to increase our USDH staffing
levels from three to five. We have currently
identified a candidate for one of these new positions.
In addition, our General Development Officer position,
which had been vacant for one year, was filled in
August. We anticipate the arrival of our Democracy
and Governance Officer during the 1st quarter of fiscal
year 2003. We have yet to identify a Controller but
the position is advertised in the current bidding
cycle. Until a USDH Controller arrives, the Mission
will continue to contract with a retired Controller to
ensure the Mission has adequate on-site financial
management. These experienced officers are key to
implementation of our Mission Program. Many of our
current staff (American and Congolese) are relatively
new to USAID. I believe with the arrival of
additional experienced USAID officers, the Mission
will have the resources required to not only implement
the needed procedures and controls but provide our
current staff the necessary training to ensure
continued Mission compliance.

We look forward to working with you and your staff in
the future. Your office provides a valuable resource
to Mission Management. We intend to draw on that
resource often as we move forward with implementation
of our new Mission strategy.



                                                        15
Clearance: N.Jenks, PROG Draft 09/24/02
           J.Mayer, EXO Draft 09/25/02


Drafted by: G.Jenkins, OFM TDY 09/23/02




                                          16
